<html>
<title> - AUTHORIZING CUSTOMS AND BORDER PROTECTION AND IMMIGRATION AND CUSTOMS ENFORCEMENT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
 AUTHORIZING CUSTOMS AND BORDER PROTECTION AND IMMIGRATION AND CUSTOMS 
                              ENFORCEMENT
=======================================================================


                                HEARING

                               before the

                         SUBCOMMITTEE ON BORDER

                         AND MARITIME SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 8, 2014

                               __________

                           Serial No. 113-63

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] 


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________



                  U.S. GOVERNMENT PRINTING OFFICE
88-782                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Filemon Vela, Texas
Lou Barletta, Pennsylvania           Eric Swalwell, California
Richard Hudson, North Carolina       Vacancy
Steve Daines, Montana                Vacancy
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
Mark Sanford, South Carolina
Vacancy
                   Brendan P. Shields, Staff Director
          Michael Geffroy, Deputy Staff Director/Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

              SUBCOMMITTEE ON BORDER AND MARITIME SECURITY

                Candice S. Miller, Michigan, Chairwoman
Jeff Duncan, South Carolina          Sheila Jackson Lee, Texas
Tom Marino, Pennsylvania             Loretta Sanchez, California
Steven M. Palazzo, Mississippi       Beto O'Rourke, Texas
Lou Barletta, Pennsylvania           Vacancy
Vacancy                              Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (Ex             (Ex Officio)
    Officio)
            Paul L. Anstine, II, Subcommittee Staff Director
                   Deborah Jordan, Subcommittee Clerk
         Alison Northrop, Minority Subcommittee Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Candice S. Miller, a Representative in Congress 
  From the State of Michigan, and Chairwoman, Subcommittee on 
  Border and Maritime Security...................................     1
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Ranking Member, Subcommittee on 
  Border and Maritime Security...................................     3

                               Witnesses

Mr. Kevin K. Mcaleenan, Acting Deputy Commissioner, U.S. Customs 
  and Border Protection, U.S. Department of Homeland Security:
  Oral Statement.................................................     9
  Joint Prepared Statement.......................................    10
Mr. Daniel H. Ragsdale, Acting Director, Immigrations and Customs 
  Enforcement, U.S. Department of Homeland Security:
  Oral Statement.................................................    16
  Joint Prepared Statement.......................................    10

                             For the Record

The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Ranking Member, Subcommittee on 
  Border and Maritime Security:
  Statement of Colleen M. Kelley, National President, National 
    Treasury Employees Union.....................................     4


 AUTHORIZING CUSTOMS AND BORDER PROTECTION AND IMMIGRATION AND CUSTOMS 
                              ENFORCEMENT

                              ----------                              


                         Tuesday, April 8, 2014

             U.S. House of Representatives,
      Subcommittee on Border and Maritime Security,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:09 a.m., in 
Room 311, Cannon House Office Building, Hon. Candice S. Miller 
[Chairwoman of the subcommittee] presiding.
    Present: Representatives Miller, Duncan, Jackson Lee, 
Sanchez, and O'Rourke.
    Mrs. Miller. Good morning. The Committee on Homeland 
Security, the Subcommittee on Border and Maritime Security will 
come to order. The subcommittee is meeting today formally to 
examine the need to formally authorize the U.S. Customs and 
Border Protection and also the U.S. Immigration and Customs 
Enforcement.
    Our two witnesses today are, first of all, Kevin McAleenan. 
We welcome you back to the committee. He is the acting deputy 
commissioner of the U.S. Customs and Border Protection. Daniel 
Ragsdale, we welcome you as well. He is the deputy director of 
U.S. Immigration and Customs Enforcement. I will more formally 
recognize them in just a moment.
    The U.S. Customs and Border Protection and the U.S. 
Immigration and Customs Enforcement are two of the largest 
Federal law enforcement agencies in the Government. Though is 
hard to believe, neither one of them has ever been formally 
authorized by the Congress into law, since the creation of 
Homeland Security over 12 years ago. So for more than a decade, 
these two agencies have existed apart from explicit statutory 
authority which other agencies of the Federal Government 
routinely receive.
    To that end, myself and the Ranking Member have introduced 
H.R. 3846 and also H.R. 4279, the United States Customs and 
Border Protection Authorization Act and the United States 
Immigration and Customs Enforcement Authorization Act, 
respectively. These bills represent the first attempt by the 
Congress since the Homeland Security Act was enacted to clearly 
delineate the current authorities and responsibilities of the 
these two vital agencies which fall within the Department of 
Homeland Security. As the committee of primary jurisdiction 
over CBP and ICE, we are responsible not only for oversight of 
the agencies under their purview, of course, but also for the 
policy guidance to the Department as a whole to furnish the 
agencies with the proper authorities to carry out their 
mission.
    The fact that these agencies have been operating for as 
long as they have without statutorily mandating what Congress 
and the American people expect from CBP and from ICE is a 
problem we think that needs to be corrected. The Homeland 
Security Act--again, nearly 12 years old--reflects the choices 
made by Congress at the time to cobble 22 different agencies 
together very quickly. The provisions of the act do not fully 
address all of the authorities and current security missions of 
either ICE or CBP, which have significantly evolved over the 
last decade. In addition, the Homeland Security Act does not 
accurately reflect the current organization of the Department.
    For example, most of the authority for the work that ICE 
and CBP now perform was vested in a position called the under 
secretary of border and transportation security. If you haven't 
heard of it lately, that is because it was eliminated by then-
Secretary Chertoff in 2005. Nonetheless, the position remains 
in law. The legislation we are discussing today is the first 
step in fixing outdated provisions from the source legislation 
that created the Department.
    Both agencies continue to rely on very vague authority 
given to the secretary or to the Homeland Security offices, 
like the Border and Transportation directorate that no longer 
exists. Certainly that is not a sustainable way to run two of 
the premier Federal law enforcement agencies, especially ones 
that are so critical to National security. For example, the 
Office of the United States Border Patrol is referenced only 
briefly in the Homeland Security Act, and ICE is not mentioned 
at all.
    Congressional policy guidance and direction through the 
authorization process is long overdue, and certainly we believe 
we should begin, as the bills that we have introduced do, by 
authorizing ICE and CBP's current missions the way that the 
Department currently operates and then build on that foundation 
over time.
    These bills specifically authorize each major component of 
the respective agencies to accomplish that goal. In the case of 
CBP, we authorize the specific functions of the Office of Field 
Operations, United States Border Patrol Office of Air and 
Marine, the Office of Intelligence and Investigative Liaison, 
and the Office of Internal Affairs.
    When it comes to ICE, we authorize the Office of Homeland 
Security Investigations, Office of Enforcement and Removal 
Operations, and the Office of Professional Responsibility. The 
legislation also recognizes the lead role that ICE plays in 
administering the Intellectual Property Rights Coordination 
Center and the Export Enforcement Coordination Center. Once we 
have established a firm statutory foundation, then we can 
begin--as other committees do--to regularly authorize key parts 
of the Department every Congress, which reflect the committee's 
priorities.
    Finally, it is well-known that the Committee on Homeland 
Security has some serious jurisdictional challenges. You only 
need to look at the multiple committees that received referrals 
to these bills as a case in point. However, we cannot let 
jurisdictional hurdles be an impediment to the work that is the 
core of this committee's purpose: Authorizing the agencies that 
fall under the DHS umbrella.
    So I certainly want to thank the Ranking Member for her 
support for both of these bills. I also want to commend the 
work and assistance that both CBP and ICE provided as we 
started the difficult tasks of cleaning up the Homeland 
Security Act to give the proper authorities to these two 
agencies and to the men and women who are charged with 
protecting the homeland. Again, we appreciate the witnesses. I 
will formally introduce them in just a moment.
    But at this time, the Chairwoman recognizes the Ranking 
Member of the subcommittee, the gentlelady from Texas, Ms. 
Jackson Lee, for any statement that she may have.
    Ms. Jackson Lee. Thank you so very much, Madam Chairwoman. 
Let me acknowledge Ms. Sanchez of California and Mr. O'Rourke 
of Texas, who are also present here this morning. Thank the 
witnesses for your presence this morning and for the work, 
great work, that you do. I am delighted to join with the 
Chairwoman, as Ranking Member, in also affirming the importance 
of a reauthorization and authorization legislation, which 
really is a road map and gives the kind of infrastructure to 
the work that is so ably being done and allows us to work 
closely on issues that will better enhance the service that 
both United States Customs and Border Protection and U.S. 
Immigration and Customs Enforcement are able to give on behalf 
of this Nation.
    Enacting such legislation is long overdue. Authorizing 
legislation for these agencies has not been updated since the 
Homeland Security Act of 2002 established CBP and ICE within 
the Department of Homeland Security. I have been here long 
enough to have been part of that process and part of the 
organizing process of the actual Homeland Security Department, 
the merger of so many different agencies and, certainly, this 
committee. Neither component is authorized in law as it stands 
in its current form.
    While the law has not been updated, the world has continued 
to turn. Today, CBP is one of the largest components within 
DHS, with 60,000 dedicated employees committed to securing and 
administering our Nation's borders. I also recognize that for 
those of us who have spent many a day, or hours, at the 
border--both Southern and Northern Border--we see the 
variations of service of those who work with CBP. We have heard 
their concerns, we have heard their descriptions of their work 
and their needs. I believe it is very important now to hone in 
on all the work and the workers, and to be able to provide an 
authorization bill that responds to some of their concerns, as 
well.
    With that in mind, I would like to offer into the record, 
Madam Chairwoman, a statement by the National Treasury 
Employees Union, NTEU--the president is Colleen M. Kelly, 
national president--responding to the issue of the needs that 
they have with respect to the staffing issues that are so very 
important. I ask unanimous consent to put this into the record.
    Mrs. Miller. Without objection.
    Ms. Jackson Lee. Thank you.
    [The information follows:]
 Statement of Colleen M. Kelley, National President, National Treasury 
                            Employees Union
                             April 8, 2014
    Chairwoman Miller, Ranking Member Jackson Lee, distinguished 
Members of the subcommittee; thank you for the opportunity to provide 
this testimony. As president of the National Treasury Employees Union 
(NTEU), I have the honor of leading a union that represents over 24,000 
Customs and Border Protection (CBP) Officers and trade enforcement 
specialists stationed at 329 land, sea, and air ports of entry (POEs) 
across the United States.
    NTEU applauds the committee for introducing a bill authorizing the 
establishment of CBP, recognizing it as America's front-line border 
security agency, responsible for protecting the American people from 
the entry of dangerous goods and people, while at the same time 
facilitating legal trade and travel. NTEU also applauds the fiscal year 
2014 Consolidated Appropriations Act (Omnibus), recognized that there 
is no greater roadblock to legitimate trade and travel efficiency than 
the lack of sufficient staff at the ports.
    Understaffed ports lead to long delays in our commercial lanes as 
cargo waits to enter U.S. commerce. NTEU strongly supported the fiscal 
year 2014 Omnibus Appropriations bill that provided funding to hire an 
additional 2,000 new CBP Officers by the end of fiscal year 2015 at the 
air, sea, and land ports of entry. NTEU also strongly supports the 
administration's legislative proposal in its fiscal year 2015 budget 
request to fund the hiring of an additional 2,000 CBP Officers--
bringing the total number of CBP Officers to 25,775--paid for by an 
increase in customs and immigration user fees. This increase is 
supported by CBP's fiscal year 2014 Resource Optimization at Ports of 
Entry Report to Congress which includes the results of the Workforce 
Staffing Model that identifies a pre-Omnibus need for 3,811 new CBP 
Officers. It is important that the committee authorize funding for 
these additional 2,000 CBP Officers in fiscal year 2015 and beyond in 
H.R. 3846.
    For years, NTEU has maintained that delays at the ports result in 
real losses to the U.S. economy. According to the U.S. Department of 
the Treasury, more than 50 million Americans work for companies that 
engage in international trade and, according to a recent University of 
Southern California study, ``The Impact on the Economy of Changes in 
Wait Times at the Ports of Entry'', dated April 4, 2013, for every 
1,000 CBP Officers added, the United States can increase its gross 
domestic product by $2 billion, which equates to 33 new private-sector 
jobs per CBP Officer added.
    NTEU strongly supports the increase in the immigration and customs 
user fees by $2.00 each to fund the hiring of an additional 2,000 CBP 
Officers in fiscal year 2015, but recognize that this increase may not 
be approved by Congress. CBP collects user fees to recover certain 
costs incurred for processing, among other things, air and sea 
passengers, and various private and commercial land, sea, air, and rail 
carriers and shipments. The source of these user fees are commercial 
vessels, commercial vehicles, rail cars, private aircraft, private 
vessels, air passengers, sea passengers, cruise vessel passengers, 
dutiable mail, customs brokers, and barge/bulk carriers. These fees are 
deposited into the Customs User Fee Account. Customs User Fees are 
designated by statute to pay for services provided to the user, such as 
inspectional overtime for passenger and commercial vehicle inspection 
during overtime shift hours. User fees have not been increased in years 
and some of these user fees cover only a portion of recoverable fee-
related costs. In 2010, CBP collected a total of $13.7 million in 
Commercial Vehicle user fees, but the actual cost of Commercial Vehicle 
inspections in fiscal year 2010 was over $113.7 million--a $100 million 
shortfall.
    Increasing the immigration inspection user fee by $2 will allow CBP 
to better align air passenger inspection fee revenue with the costs of 
providing immigration inspection services. According to the Government 
Accountability Office (GAO) (GAO-12-464T, page 11), fee collections 
available to ICE and CBP to pay for costs incurred in providing 
immigration inspection services totaled about $600 million in fiscal 
year 2010, however, ``air passenger immigration fees collections did 
not fully cover CBP's costs in fiscal year 2009 and fiscal year 2010.''
    Despite an increase in appropriated funding in fiscal years 2014 
and 2015 for an additional 2,000 CBP Officers, CBP will still face 
staffing shortages in fiscal year 2015 and beyond. If Congress is 
serious about job creation, then Congress should support enactment of 
legislation that increases the IUF and COBRA fees by $2.00 each and 
adjust both fees annually to inflation. If Congress does not enact the 
user-fee increases requested, the needed staffing enhancement must be 
funded by discretionary appropriations. This committee should authorize 
appropriations to address the on-going CBP Officer staffing shortages 
as identified by CBP's Workforce Staffing Model, as well as shortages 
of CBP staff in CBP's other vital agriculture and trade inspection and 
compliance missions.
                agriculture specialist staffing shortage
    CBP employees at the ports also perform agriculture inspections to 
prevent the entry of animal and plant pests or diseases. The U.S. 
agriculture sector is a crucial component of the American economy, 
generating over $1 trillion in annual economic activity. According to 
the United States Department of Agriculture (USDA), foreign pests and 
diseases cost the American economy tens of billions of dollars 
annually. Failure to detect and intercept these non-native pests and 
diseases imposes serious economic and social costs on all Americans. 
Staffing shortages and lack of mission priority for the critical work 
performed by CBP Agriculture Specialists and CBP Technicians assigned 
to the ports is a continuing threat to the U.S. economy.
    To address CBP Agriculture Specialist staffing shortages at the 
ports of entry, NTEU supports funding to hire additional CBP 
Agriculture Specialists. We also support GAO recommendations aimed at 
more fully aligning Agriculture Quality Inspection (AQI) fee revenue 
with program costs (see GAO-13-268). According to GAO, in fiscal year 
2011, CBP incurred 81 percent of total AQI program costs, but received 
only 60 percent of fee revenues; whereas the Animal, Plant Health 
Inspection Service (APHIS) incurred 19 percent of program costs but 
retained 36 percent of the revenues. In other words, APHIS covers all 
its AQI costs with AQI fee revenues, while CBP does not. AQI user fees 
fund only 62 percent of agriculture inspection costs with a gap of $325 
million between costs and revenue. To bridge the resulting gap, CBP 
uses its annual appropriation.
    NTEU supports CBP's efforts to establish an Agriculture Specialist 
Resource Allocation Model to ensure adequate CBP Agriculture Specialist 
staffing at the POEs. Release of the Agriculture Specialist Workforce 
Staffing Model, initially due at the end of September 2013, however, 
has been postponed. NTEU has learned that the Model, when released, 
will show a significant staffing shortage at the ports and a need to 
hire a significant number of additional CBP Agriculture Specialists. 
NTEU requests the committee to authorize in H.R. 3846 funding to hire 
additional CBP Agriculture Specialists as specified in the forthcoming 
workforce staffing model.
                 foreign language awards program (flap)
    NTEU is strongly opposed to the $16 million cut in the 
administration's fiscal year 2015 budget proposal for the Foreign 
Language Award Program (FLAP). Established in 1993, FLAP allows 
employees who speak and use foreign language skills on the job to 
receive a cash award if they use the language for at least 10 percent 
of their duties and have passed the competency test. Congress 
authorized FLAP as an incentive for CBP Officers and CBP Agriculture 
Specialists to learn foreign languages to augment duties at the ports 
of entry in order to better serve the traveling public and their 
security mission.
    Congress understood that these law enforcement officers stationed 
at U.S. air, sea, and land ports of entry were in daily direct contact 
with international travelers. Facilitation of trade and travel along 
with port security is a dual mission of these employees. Not only do 
language barriers delay processing of trade and travel at the ports, 
for these law enforcement officers, communication breakdowns can be 
dangerous. Confusion arises when a non-English speaking person does not 
understand the commands of a law enforcement officer. These situations 
can escalate quite rapidly if that person keeps moving forward or does 
not take their hands out of their pockets when requested.
    This incentive program, incorporating more than 2 dozen languages, 
has been instrumental in identifying and utilizing CBP employees who 
are proficient in a foreign language. At CBP, this program has been an 
unqualified success, and not just for employees, but for the travelers 
who are aided by having someone at a port of entry who speaks their 
language, for the smooth functioning of the agency's security mission.
    Congress should be concerned about the impact on the traveling 
public and CBP's security mission if this 84% cut in this valuable 
program is implemented. In the fiscal year 2013 Senate Homeland 
Security Appropriations bill, Congress encouraged CBP to work with 
airport authorities to develop a ``welcome ambassador'' program and 
cited language within the CBP's fiscal year 2012 Improving Entry 
Process for Visitors Report stating, ``[CBPOs are] the first face of 
the U.S. Government that travelers see at ports of entry. As a visible 
symbol of our Nation, CBP Officers have an important responsibility.''
    Incentivizing CBP Officers to attain and maintain competency in a 
foreign language through FLAP, not only improves the efficiency of 
operations, it makes the United States a more welcoming place when 
foreign travelers find CBP Officers can communicate in their language, 
and help expedite traveler processing to reduce wait times. In a recent 
U.S. Travel Association Traveler Survey, adding entry processing 
personnel fluent in foreign languages ranked second in priority--only 
surpassed by reducing long lines and wait times.
    Pursuant to Title 19, section 58c(f) of the U.S. Code, FLAP is 
funded with user fee collections rather than appropriations. A portion 
of customs user fees paid by international travelers fund the 
availability of CBP personnel with foreign language fluency. It is 
clear that by reducing the program from $19 million to $3 million and 
reallocating these user fee funds, the incentives available to CBP 
Officers will be dramatically reduced. Many Officers will drop out of 
this program that requires on-going training and testing to be 
eligible. This result will only add to the perception by international 
travelers that traveling to the United States is an unwelcoming 
experience and one to be avoided.
    NTEU urges the committee to include FLAP authorization language in 
H.R. 3846 requiring FLAP payments to all eligible CBP employees.
                     cbp trade operations staffing
    CBP has a dual mission of safeguarding our Nation's borders and 
ports as well as regulating and facilitating international trade. In 
fiscal year 2013, all revenue collected by CBP exceeded $41 billion 
with nearly $30 billion of that revenue coming from the collection of 
trade duties. Since CBP was established in March 2003, however, there 
has been no increase in CBP trade enforcement and compliance personnel. 
NTEU is concerned that, rather than hiring additional CBP trade 
operations personnel, the budget proposes to cut trade operations 
positions including Rulings and Regulations staffers who are 
responsible for promulgating regulations and rulings, and providing 
policy and technical support to CBP, DHS, Treasury, Congress, and the 
importing community concerning the application of Customs laws and 
regulations.
    NTEU urges the committee not to support cuts to CBP trade 
operations staff, but to authorize funding to hire additional trade 
enforcement and compliance personnel, including Import Specialists, at 
the ports of entry to enhance trade revenue collection.
    NTEU commends the Department for increasing the journeyman pay for 
CBP Officers and Agriculture Specialists. Many deserving CBP trade and 
security positions, however, were left out of this pay increase, which 
has significantly damaged morale.
    NTEU strongly supports extending this same career ladder increase 
to additional CBP positions, including CBP Trade Operations Specialists 
and CBP Seized Property Specialists and seeks authorizing language in 
H.R. 3846 to achieve this goal. The journeyman pay level for the CBP 
Technicians who perform important commercial trade and administration 
duties should also be increased from GS-7 to GS-9.
    CBP continues to be a top-heavy management organization. In terms 
of real numbers, since CBP was created, the number of new managers has 
increased at a much higher rate than the number of new front-line CBP 
hires. According to CBP's own numbers, the Supervisor-to-front-line-
employee ratio was 1 to 5.9 for the CBP workforce, 1 to 6.1 for CBP 
Officers and 1 to 6.9 for CBP Agriculture Specialists.
    The tremendous increase in CBP managers and supervisors has come at 
the expense of National security preparedness and front-line positions. 
Also, these highly-paid management positions are straining the CBP 
budget. With the increase of potentially 4,000 CBP Officer new hires, 
NTEU urges the committee to require CBP to provide a staffing plan to 
return to a more balanced supervisor to front-line employee ration.
    NTEU strongly urges Congress to end the sequester. Without 
enactment of the Omnibus appropriations bill, the sequester would have 
severely restricted CBP's ability to address critical staffing needs at 
the ports of entry in fiscal years 2014 and 2015. If Congress doesn't 
reverse the Budget Control Act, another round of sequestration will be 
devastating to CBP--requiring furloughs and hiring freezes, reducing 
services, increasing wait times for trade and travel, and jeopardizing 
National security.
                            recommendations
    Additional CBP staff must be authorized to ensure security and 
mitigate prolonged wait times for both trade and travel at our Nation's 
ports of entry. Therefore, NTEU urges the committee to end the 
sequester and include in H.R. 3846:
  <bullet> authorization for an additional 2,000 CBP Officers--bringing 
        the total staffing number to 25,775;
  <bullet> authorization for an increase in agriculture inspection and 
        trade enforcement staffing to adequately address increased 
        agriculture and commercial trade volumes;
  <bullet> authorization of enhanced pay and retirement recognition to 
        additional CBP personnel, including Import and other Commercial 
        Operations Specialists, CBP Seized Property Specialists, and 
        CBP Technicians; and
  <bullet> Language requiring CBP to continue the COBRA user fee 
        funding for all FLAP eligible CBP employees.
    Lastly, NTEU strongly supports legislation to allow CBP to 
increase, by $2.00, user fees to help recover costs associated with 
fee-funded services and provide funding to hire additional CBP 
Officers. We also support including in the extension of the Travel 
Promotion Act that provides CBP the authority to collect a fee to fund 
the promotion of tourism, a provision requiring that a significant 
portion of fees collected be remitted to CBP to provide additional 
funding for CBP Officer new hires.
    The more than 24,000 CBP employees represented by NTEU are proud of 
their part in keeping our country free from terrorism, our 
neighborhoods safe from drugs and our economy safe from illegal trade, 
while ensuring that legal trade and travelers move expeditiously 
through our air, sea, and land ports. These men and women are deserving 
of more resources to perform their jobs better and more efficiently.
    Thank you for the opportunity to submit this testimony to the 
committee on their behalf.

    Ms. Jackson Lee. The agency has a myriad of new 
responsibilities, including administering more sophisticated 
travel screening programs, expanded trusted traveler 
initiatives, and enhanced border security technology. ICE is 
DHS's investigative agency, with over 20,000 men and women 
enforcing Federal laws governing border control, customs, 
trade, and immigration. Their work is also ever more complex, 
with investigations related to narcotic smuggling and human 
trafficking, in addition to immigration enforcement and other 
responsibilities.
    I want to thank Mr. Ragsdale and ICE, and the 
representative of ICE, for participating in an official 
Congressional hearing in Houston, Texas on human trafficking, 
which, in that hearing, Houston, Texas was noted as the 
epicenter of human trafficking. I appreciate, Madam Chairwoman, 
and I--as we proceed on this reauthorization, the work that ICE 
is doing around the country to help save lives and to help end 
the exploitation of children and women and others in this 
deadly devastation, human trafficking, modern-day slavery. So I 
wanted to make note of that.
    Given the scope and importance of the missions carried out 
by CBP and ICE, proper authorizing legislation is essential to 
ensuring appropriate staffing and programmatic guidance from 
Congress. It is the responsibility of the committee to ensure 
such legislation is acted upon. That is why I am proud to be an 
original cosponsor of both H.R. 3846, the United States Customs 
and Border Protection Authorization, and H.R. 4279, the United 
States Immigration and Customs Enforcement Authorization Act.
    I thank the gentlelady from Michigan for working with our 
offices and for this bipartisan nature of the discussions 
regarding these bills to date, and looking forward to continued 
collaboration on the measures as they move through the 
legislative process. The bills, as introduced, provide an 
excellent basis for discussion today, and a good starting point 
for the legislative process.
    Many times, the public sees CBP as the guys at the border 
and ladies at the border. ICE is seen, in many instances, by 
diverse groups--particularly immigrant groups--as the detainers 
of individuals, their loved ones, or detainers of those who 
have been taken into immigration custody. Their work is vast 
and much broader. We must give them the tools to do so. I might 
add here, we must pass comprehensive immigration reform that 
will, in fact, allow them to have a structure of law that will 
ensure that the bad guys are detained, and others who want to 
do work have a process to access citizenship.
    I look forward to continuing to work together as we move 
toward a possible markup. Today, I look forward to hearing from 
Members about what provisions they believe need to be included 
in legislation authorizing CBP and ICE, and we will be looking 
at the record. We are fortunate to have Members on the 
Democratic side with a great deal of expertise on border 
security matters, whether they represent a border district or 
have a long history of work with the subcommittee.
    I hope that we will be actively engaged in laying the 
groundwork for a possible future markup by questioning the 
witnesses on issues relevant to the legislation being 
considered, along with a number of other initiatives that I 
have introduced. Members' insight will be invaluable as the 
legislative processes move forward. I understand that the 
administration has not yet taken an official position on either 
H.R. 3846 or 4279. However, I hope the witnesses will do their 
utmost to offer their insight, opinion, and expertise in 
response to Members' questions regarding the bills, as 
introduced.
    I thank the witnesses for being here, and I am delighted to 
join with the Chairwoman on this hearing. I conclude by 
indicating to the Chairwoman and to the Members of the this 
committee I also have Attorney General Holder in the Judiciary 
Committee. At a certain point in this hearing I will be 
departing, and ask your indulgence. Thank you for your courtesy 
recognizing the overlapping schedule that I have. Thank you so 
very much.
    I yield back at this time.
    Mrs. Miller. I thank the gentlelady. Other Members of the 
committee would be reminded that their opening statements might 
be submitted for the record. I will just pick up on one thing 
that that the gentlelady mentioned about human trafficking, 
which is such a terrible, terrible thing that is happening--as 
she mentioned, modern-day slavery, really. Our bill, our 
authorization, does authorize ICE to investigate and to look 
into human trafficking. So I think that is an important 
component.
    Again, the Chairwoman is pleased to have two distinguished 
witnesses today to discuss our authorizing bills. First of all, 
Mr. Kevin McAleenan is the acting deputy commissioner of the 
U.S. Customs and Border Protection. Previously, he was the 
acting assistant commissioner for the Office of Field 
Operations at U.S. Customs and Border Protection, where he was 
responsible for overseeing CBP's anti-terrorism, immigration, 
anti-smuggling, trade compliance, and agricultural protection 
operations at the Nation's 329 ports of entry.
    Daniel Ragsdale is the deputy director for U.S. Immigration 
and Customs Enforcement. Mr. Ragsdale executes oversight of 
ICE's day-to-day operations, including approximately 20,000 
operation and mission support personnel. The witnesses' full 
written statement will appear in the record.
    The Chairwoman now recognizes Mr. McAleenan for his 
testimony.

 STATEMENT OF KEVIN K. MC ALEENAN, ACTING DEPUTY COMMISSIONER, 
U.S. CUSTOMS AND BORDER PROTECTION, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. McAleenan. Good morning, Chairwoman Miller, Ranking 
Member Jackson Lee, and distinguished Members of the 
subcommittee. Thank you for the opportunity to appear before 
you today to discuss the proposed legislation to authorize U.S. 
Customs and Border Protection, CBP, and formalize our role in 
securing America's borders and facilitating legitimate trade 
and travel.
    Before I begin, I would like to thank this subcommittee for 
its continued support and commitment to CBP. H.R. 3846, the 
United States Customs and Border Protection Authorization Act, 
would authorize, for the first time, CBP's leadership, 
organization, and reporting structures. The bill provides a 
solid legislative framework that reflects today's CBP. It 
modernizes and clarifies current statute, specifically the 
Homeland Security Act of 2002, to remove references and 
authorities granted to entities that no longer exist and 
entrust them to the commissioner of CBP, where they are 
properly lodged.
    The authorization bill recognizes the distinct and 
important role that CBP, the largest law enforcement agency in 
the United States, plays every day in keeping Americans safe. 
It recognizes the broad and complex border security, law 
enforcement and facilitation missions with which CBP is 
charged, and the unique capabilities that the people at CBP 
bring to bear to carry them out. Like its mission, CBP's law 
enforcement jurisdiction is highly complex and derives 
authority from a wide spectrum of Federal statutes.
    CBP enforces customs laws related to tariff and revenue 
protection, immigration laws related to the admission of 
individuals to the United States. Additionally, CBP has been 
given the broad mandate to enforce all Federal laws, including 
drug, export control, money laundering, and agriculture at the 
borders of the United States.
    The laws we enforce are vital to ensuring all persons and 
cargo entering the United States do so legally and safely 
through official ports of entry, preventing the illegal entry 
of persons and contraband, promoting the safe and efficient 
cross-border flow of commerce, and protecting U.S. business 
from harmful and illicit trade activities.
    We perform our critical law enforcement mission with three 
front-line operational offices: Field operations, U.S. Border 
Patrol, and Air and Marine. Operating at 329 ports of entry 
across the United States in 16 pre-clearance locations 
internationally, CBP's Office of Field Operations plays a vital 
role in preventing terrorists and terrorist weapons the 
country, and securing and facilitating lawful trade and travel. 
Working to interdict high-risk passengers and cargo before they 
arrive at our ports of entry, the National Targeting Center 
leverages all available advance passenger and cargo information 
to detect and deter potentially dangerous persons before they 
board an aircraft or vessel, or cargo before it is loaded on a 
conveyance destined for the United States.
    In between ports of entry, the U.S. Border Patrol prevents 
terrorists and terrorist weapons, criminals and drug 
traffickers from entering the United States, detects and 
prevents the smuggling and unlawful entry of undocumented 
individuals, and apprehends those found to be in violation of 
the immigration laws.
    The Office of Air and Marine protects the American people 
and the Nation's critical infrastructure through the 
coordinated use of Air and Marine forces to detect, interdict, 
and prevent the unlawful movement of people, illegal drugs, and 
other contraband toward or across our borders.
    In addition to its security mission, CBP has direct 
responsibility for enhancing U.S. economic competitiveness. The 
Office of International Trade coordinates CBP's policies and 
strategies to reduce the cost for industry and enforce trade 
laws against counterfeit, unsafe, or fraudulently-entered 
goods. These offices receive direct operational support from 
the Offices of Intelligence and Investigative Liaison, 
International Affairs and Internal Affairs. CBP's mission 
support offices, as well as our Federal, State, local, Tribal, 
international and, critically, our private-sector partners are 
also vital contributors toward our mission.
    I wish to thank the Members of the subcommittee for your 
pursuit of this authorization bill, which reflects the goals of 
the 9/11 Commission and the Homeland Security Act to integrate, 
streamline, and modernize our Nation's security functions into 
a unified force, a strengthened homeland security enterprise, 
and a more secure America that is better equipped to confront 
the range of threats we face today and in the days to come.
    As H.R. 3846 progresses through the legislative process, we 
look forward to working with Congress to ensure that CBP 
retains the necessary authorities to keep terrorists and their 
weapons out of the United States, to secure our borders and to 
facilitate international trade and travel.
    Thank you again for this opportunity to testify. I look 
forward to answering your questions.
    [The joint prepared statement of Mr. McAleenan and Mr. 
Ragsdale follows:]
 Joint Prepared Statement of Kevin K. McAleenan and Daniel H. Ragsdale
                             April 8, 2014
    Chairman Miller, Ranking Member Jackson Lee, Members of the 
subcommittee, it is an honor to appear before you today to discuss U.S. 
Customs and Border Protection (CBP) and U.S. Immigration and Customs 
Enforcement (ICE) and our efforts in securing America's borders. We 
would like to acknowledge and thank this committee for the consistent 
support and commitment you have shown to the mission and people of the 
Department of Homeland Security (DHS).
    We appreciate the opportunity to talk about the authorization of 
CBP and ICE--two agencies that share a long and rich history. Our roots 
date back as far as the 18th Century when the First United States 
Congress established the United States Customs Service, operating out 
of official U.S. ports of entry (POEs), to be responsible for the 
collection of duties on imported goods. In the late 19th Century, 
Congress created the Bureau of Animal Industry, which later became the 
Animal and Plant Health Inspection Service (APHIS) under the Department 
of Agriculture, of which part of their responsibility was to support 
inspection activities at POEs. At approximately the same time, Congress 
established an immigration office, which later became the Immigration 
and Naturalization Service (INS), and placed inspectors at major POEs 
to process immigrants seeking admission to the United States, and to 
collect a tax on all individuals admitted. Soon after, responding to a 
need to secure the borders between inspection stations, Congress 
established the Border Patrol.
    Congress created DHS in the aftermath of the September 11, 2001, 
attacks, and in response to the recommendations of the 9/11 Commission. 
With the passage of the Homeland Security Act in November 2002, DHS 
formally came into being as a stand-alone, Cabinet-level department to 
further coordinate and unify National homeland security efforts, 
opening its doors on March 1, 2003. DHS brought together 22 agencies 
from across the Executive branch into a unified, integrated department, 
to prevent terrorism and enhance security; secure and manage U.S. 
borders; enforce and administer U.S. immigration laws; safeguard and 
secure cyberspace; and ensure resilience to disasters.
    With the creation of DHS, the enforcement and service functions of 
INS and the U.S. Customs Service were absorbed into the Directorate of 
Border and Transportation Security, including U.S. Customs, Bureau of 
Border Security, and Bureau of Citizenship and Immigration Services. In 
2003, President George W. Bush submitted a reorganization plan for DHS, 
renaming the Bureau of Border Security the Bureau of Immigration and 
Customs Enforcement and the Customs Service the Bureau of Customs and 
Border Protection. In 2007, DHS changed the name of the Bureau of 
Customs and Border Protection to U.S. Customs and Border Protection and 
the Bureau of Immigration and Customs Enforcement to U.S. Immigration 
and Customs Enforcement.
    CBP assumed the Border Patrol and Inspections functions formerly 
conducted by INS, and the Agriculture Inspection functions formerly 
conducted by APHIS, while the Investigative functions were placed 
within ICE. The legacy U.S. Customs Service's Air and Marine 
Interdiction Division was initially transferred to ICE when DHS was 
created in 2003; however, because CBP also had Border Patrol air and 
marine assets, the Office of Air and Marine officially became CBP's 
third uniformed division and consolidated its assets into CBP in 2006.
    Today, with 60,000 employees, CBP is one of DHS's largest and most 
complex components, with a priority mission of keeping terrorists and 
their weapons out of the United States. It also has a responsibility 
for securing the border--approximately 7,000 miles of land borders and 
95,000 miles of coastline--and facilitating lawful international trade 
and travel. CBP takes a comprehensive approach to border management and 
control, combining customs, immigration, border security, and 
agricultural protection into one coordinated and supportive activity. 
On a typical day, CBP processes nearly 1 million travelers, screens 
more than 67,000 cargo containers, arrests more than 1,100 individuals, 
and seizes nearly 6 tons of illicit drugs. CBP enforces hundreds of 
U.S. laws and regulations, including customs, immigration, trade, and 
drug laws. In addition to its own regulations, CBP's enforces more than 
500 laws for 47 Federal agencies, in coordination with these agencies.
    Like its mission, CBP's law enforcement jurisdiction is highly 
complex and derives authority from a wide spectrum of Federal statutes. 
CBP enforces customs laws \1\ related to tariff and revenue protection, 
and immigration laws \2\ related to the admission of individuals to the 
United States. Additionally, because of its presence at the border and 
its unique border search authority,\3\ which is shared with ICE, CBP 
has been given the broad mandate to enforce all Federal laws--including 
drug, export control, money laundering, and agriculture laws--at the 
borders of the United States. This requires ensuring that all persons 
and cargo enter the United States legally and safely through official 
POEs, preventing the illegal entry of persons and contraband into the 
United States at and between POEs, promoting the safe and efficient 
flow of commerce into the United States, and enforcing trade and tariff 
laws and regulations.
---------------------------------------------------------------------------
    \1\ See, e.g., Title 19, United States Code.
    \2\ See, e.g., Title 8, United States Code.
    \3\ See 19 U.S.C.  482, 1461, 1467, 1496, 1499, 1581, 1582, 1583, 
1589a, 1595, and 8 U.S.C.  1357.
---------------------------------------------------------------------------
    CBP performs its critical law enforcement mission with three front-
line operational offices--Field Operations, Border Patrol, and Air and 
Marine. CBP's front-line offices receive direct operational support 
from the Offices of International Trade, Intelligence and Investigative 
Liaison, International Affairs, and Internal Affairs. Additionally, 
CBP's mission support offices, as well as our Federal, State, local, 
Tribal, international, and private-sector partners are vital 
contributors toward CBP's mission.
    The Office of Field Operations (OFO), operating at 328 POEs across 
the United States and 16 Preclearance locations internationally, plays 
a vital role in preventing terrorists and terrorist weapons from 
entering the United States and enforcing customs, immigration, and 
agriculture laws and regulations. At our Nation's POEs, CBP inspects 
all individuals seeking entry to the United States and determines their 
admissibility. Expanding the Nation's zone of security, CBP's National 
Targeting Center (NTC) leverages all available advance passenger and 
cargo data, previous crossing information, intelligence, and law 
enforcement information, as well as open-source data, to interdict 
high-risk passengers and cargo at foreign departure locations before 
they can board or be loaded on a conveyance destined to the United 
States. In between the POEs, the Office of Border Patrol (BP) prevents 
terrorists and terrorist weapons, criminals, and drug traffickers from 
entering the United States; detects and prevents the smuggling and 
unlawful entry of undocumented individuals into the United States; and 
apprehends those people found to be in violation of the immigration 
laws. From the air and from the sea, the Office of Air and Marine (OAM) 
protects the American people and the Nation's critical infrastructure 
through the coordinated use of integrated air and marine forces to 
detect, interdict, and prevent acts of terrorism and the unlawful 
movement of people, illegal drugs, and other contraband toward or 
across the borders of the United States.
    In addition to its security mission, CBP has direct responsibility 
for enhancing U.S. economic competitiveness. The Office of 
International Trade (OT) coordinates CBP's trade policies and 
strategies. By reducing costs for industry and enforcing trade laws 
against counterfeit, unsafe, and fraudulently-entered goods, CBP works 
to enable legitimate trade, contribute to American economic prosperity, 
and protect against risks to public health and safety. In 2013, CBP 
Officers processed more than $2.3 trillion in trade and nearly 25 
million cargo containers through the Nation's POEs, up 1 percent from 
last year. CBP also conducted more than 24,000 seizures of goods that 
violated intellectual property rights, with a total retail value of 
$1.7 billion, representing a 38 percent increase in value from fiscal 
year 2012.
    The Office of Intelligence and Investigative Liaison (OIIL) 
supports CBP's mission through a multi-layered approach that includes 
collecting and analyzing advance traveler and cargo information, using 
enhanced law enforcement technical collection capabilities, providing 
timely analysis of intelligence and information, and establishing 
intelligence-sharing relationships with Federal, State, local, and 
Tribal agencies and the intelligence community.
    CBP's Office of International Affairs (INA) coordinates and 
supports foreign initiatives, programs, and activities within CBP. 
Through international cooperation and relationships, INA strives to 
extend U.S. borders by implementing programs and initiatives that 
promote anti-terrorism, global border security, non-proliferation, 
export controls, immigration, and capacity building.
    CBP works to ensure that its officers and agents conduct their 
activities in a professional and humane manner that promotes the safety 
of its officers and members of the public it interacts with to build 
community trust. CBP's Internal Affairs (IA) Office is responsible for 
ensuring compliance with all CBP-wide programs and policies relating to 
corruption, misconduct, or mismanagement and for executing the internal 
security, integrity, and management inspections program. Among its 
responsibilities, IA investigates serious misconduct by CBP employees.
    ICE is the principal criminal investigative arm of DHS and one of 
three DHS agencies charged with enforcing and administering the 
Nation's immigration system. Created through a merger of the 
investigative and interior enforcement elements of the U.S. Customs 
Service and INS, ICE's primary mission is to protect National security, 
public safety, and the integrity of our borders through the criminal 
and civil enforcement of Federal law governing border control, customs, 
trade, and immigration. As with CBP, in 2007, DHS changed the name of 
the Bureau of Immigration and Customs Enforcement to ICE.
    Today, ICE has more than 19,000 employees in offices in all 50 
States and 48 foreign countries. ICE promotes homeland security and 
public safety through the strategic and wide-ranging criminal and civil 
enforcement of hundreds of Federal laws governing border control, 
customs, trade, and immigration.\4\ ICE primarily consists of two 
operational programs: Enforcement and Removal Operations (ERO) and 
Homeland Security Investigations (HSI). Guided by ICE's prioritized 
enforcement principles, ERO identifies and apprehends convicted 
criminals and other individuals deemed removable, detains or places 
these individuals in alternatives to detention programs, and removes 
individuals determined to be illegally present (or otherwise subject to 
removal) from the United States. HSI is responsible for a wide range of 
domestic and international criminal investigations arising from the 
illegal movement of people and merchandise into, within, and out of the 
United States, often in coordination with other Federal agencies.
---------------------------------------------------------------------------
    \4\ See, e.g., 8 U.S.C.  1101 et. seq. (especially 8 U.S.C.  
1225(b), 1226, 1231, 1324, 1325, 1326, and 1357) (pertaining to general 
immigration arrest, detention, and enforcement provisions); 8 U.S.C.  
1363a and 19 U.S.C.  2081 (pertaining to undercover investigative 
authorities); 15 U.S.C.  1124, 18 U.S.C.  2320 (pertaining to 
importing goods bearing infringing marks and trafficking in counterfeit 
goods or services); 19 U.S.C. Chapter 4 (the Tariff Act of 1930); 12 
U.S.C.  1829b, 12 U.S.C.  1951-59, and 31 U.S.C.  5311 et seq. 
(Bank Secrecy Act); 18 U.S.C.  542, 545, and 554 (pertaining to entry 
by false statements and smuggling goods into and out of the United 
States); 18 U.S.C.  1590 and 1591 (pertaining to peonage, slavery, 
and trafficking in persons); 18 U.S.C.  2251, 2251A, and 2252 
(pertaining to sexual exploitation and other abuse of children); 19 
U.S.C.  1589a (pertaining to enforcement authority of customs 
officers); 18 U.S.C.  1956, 1957, and 1960 (Money Laundering Control 
Act); 19 U.S.C.  2601-2613 (Cultural Property Implementation Act); 21 
U.S.C.  841, 844, 952, and 959 (Controlled Substances Act); 46 U.S.C. 
 70501-07 (Maritime Drug Law Enforcement Act); 50 U.S.C.  1701-1707 
(International Emergency Economic Powers Act).
---------------------------------------------------------------------------
    ERO enforces civil immigration laws in a manner to best promote 
National security, public safety, border security, and the integrity of 
the immigration system. To protect public safety and National security, 
ICE places highest priority on the removal of convicted criminals and 
those who pose a threat to our communities. The removal of these 
individuals from the United States is a National priority; and ERO's 
core functions are executed by a team of deportation officers and 
immigration enforcement agents that operate in nearly every 
jurisdiction of the United States. ERO facilitates the processing of 
individuals in removal proceedings through the immigration court system 
and coordinates their departure from the country, including the 
preparation of necessary travel documents.
    The establishment of the Fugitive Operations Support Center (FOSC) 
in 2006 in Williston, Vermont is a key element in ERO's strategy to 
address enforcement of arrest and removal warrants to include 
fugitives, individuals who have illegally reentered the United States 
after removal, and those posing a threat to our communities. Since 
inception, FOSC, by analyzing and reconciling ICE records pertaining to 
fugitive and the at-large convicted criminal populations, steadily 
reduced the number of existing fugitives nationally. In addition, the 
FOSC provides vital assistance to ICE Fugitive Operations Teams (FOTs) 
in the field with critical information on the identity, immigration and 
criminal history, and location of high-priority removal aliens in the 
United States, thereby resulting in increasing criminal arrest 
percentages over the last several years. Since 2003, ICE has gone from 
8 FOTs Nation-wide to 129 FOTs deployed today. At the end of fiscal 
year 2013, criminal arrests accounted for 75 percent of overall arrests 
by fugitive operations, or 23,504 criminal arrests out of the 31,222 
total fugitive operations arrests for the fiscal year.
    In addition to the FOSC, the Law Enforcement Support Center (LESC) 
is a National enforcement operations facility administered by ICE. The 
center is a single National point of contact that provides timely 
immigration status, identity information, and real-time assistance to 
local, State, and Federal law enforcement agencies on individuals 
suspected, arrested, or convicted of criminal activity. The center 
protects and defends the United States by sharing timely and relevant 
ICE information with our law enforcement partners around the world. The 
number of requests sent to the LESC increased from 4,000 in fiscal year 
1996 to more than 1.4 million in fiscal year 2013. During fiscal year 
2013, agents at the LESC placed 12,289 detainers on aliens suspected of 
immigration violations. Finally, during fiscal year 2013, Law 
Enforcement Specialists and Deportation Officers at the center 
responded to 151,319 calls from law enforcement officers.
    While ERO enforces civil immigration laws, HSI's Criminal 
Investigators conduct criminal investigations to protect the United 
States against terrorist and other criminal activity that threaten 
public safety and National security and bring to justice those seeking 
to exploit our customs and immigration laws world-wide. HSI is the DHS 
investigative agency with authority to investigate all violations of 
Federal law. HSI has jurisdiction over crimes with a nexus to the U.S. 
borders. To accomplish its mission, HSI uses its own legal authorities, 
and legal authorities shared with other law enforcement entities 
through cooperative agreements, to investigate immigration and customs 
violations, including export enforcement, human rights violations, 
narcotics, weapons and contraband smuggling, financial crimes, 
cybercrimes, human trafficking and smuggling, child exploitation, 
intellectual property violations, transnational gangs, and immigration 
benefit fraud.
    HSI protects America's borders, National security, and public 
safety by targeting transnational threats, both at home and abroad. HSI 
is a critical U.S. law enforcement asset, responsible for disrupting 
and dismantling smuggling and all forms of transnational criminal 
organizations that seek to exploit America's legitimate trade, travel, 
financial, and immigration systems for illicit purposes. As the 
principal criminal investigative agency within DHS, and with 
jurisdiction over all crimes with a nexus to U.S. borders, HSI 
investigates a wide range of financial crimes, which includes money 
laundering and bulk cash smuggling (BCS). BCS has become the preferred 
method of moving illicit proceeds by all types of criminal enterprises, 
and HSI created the National Bulk Cash Smuggling Center (BCSC) in 2009 
to proactively identify, disrupt, and dismantle criminal organizations 
exploiting BCS. The total value of HSI seizures of currency and 
monetary instruments has increased nearly 400% since fiscal year 2009, 
from $276,325,178 to $1,278,807,524 in fiscal year 2013.
    In addition to these financial investigations, ICE is one of the 
leading agencies in the U.S. Government's efforts to prevent foreign 
adversaries from illegally obtaining U.S. military products and 
sensitive technology, including weapons of mass destruction and their 
components. HSI's Counter-Proliferation Investigations Program (CPI), 
part of the HSI National Security Investigations Division, oversees a 
broad range of investigations related to export law violations. CPI 
targets the trafficking and/or illegal export of conventional military 
equipment, firearms, controlled dual-use equipment and technology, 
materials used to manufacture weapons of mass destruction, including 
chemical, biological, radiological, and nuclear materials. HSI enforces 
U.S. export laws involving military items and controlled dual-use 
goods, as well as products going to sanctioned or embargoed countries. 
A part of the President's Export Control Reform Initiative is to 
improve law enforcement coordination to investigate violations of U.S. 
export control laws. In November 2010, President Obama signed Executive 
Order 13558, creating the Export Enforcement Coordination Center 
(E2C2)--an interagency de-confliction center consisting of 8 
departments and 18 Federal agencies. New agency additions to the center 
have been the Export Import Bank and the U.S. Postal Inspection 
Service. The Executive Order establishes DHS as the Executive agency 
responsible for managing and operating the E2C2 and further directs 
that the center is mandated to coordinate and enhance criminal, 
administrative, and related export enforcement activities thereby 
protecting National security through greater export enforcement and 
intelligence exchange. The E2C2 serves as a conduit between Federal law 
enforcement agencies as well as between Federal law enforcement and the 
intelligence community, as the primary point of contact between 
enforcement authorities and agencies engaged in export licensing, 
coordinating law enforcement public outreach activities and 
establishing Government-wide statistical tracking capabilities for U.S. 
criminal and administrative export enforcement activities.
    ICE is also one of the leading agencies in the investigation of 
criminal intellectual property violations involving the illegal 
production, smuggling, and distribution of counterfeit and pirated 
products, as well as associated money laundering violations. Led by 
ICE, the National Intellectual Property Rights Coordination Center (IPR 
Center), located in Arlington, Virginia, brings together 21 Federal and 
international partners to leverage resources, skills, and authorities 
to provide a comprehensive response to intellectual property theft. The 
former U.S. Customs Service established the IPR Center in 1999, but 
following the events of 9/11, priorities were necessarily shifted and 
the IPR Center could not be adequately staffed. ICE rejuvenated the IPR 
Center in 2008, and it now stands at the forefront of the U.S. 
Government's law enforcement response to global IP theft. The mission 
of the IPR Center is to address the theft of innovation that threatens 
U.S. economic stability and National security, undermines the 
competitiveness of U.S. industry in world markets, and places the 
public's health and safety at risk. The IPR Center brings together many 
of the key domestic and foreign investigative agencies to efficiently 
and effectively leverage resources, and promotes the skills and 
authorities to provide a comprehensive response to IP crime. In fiscal 
year 2013, the IPR Center received 8,529 new leads, more than five 
times the number of leads received in fiscal year 2012. Furthermore, in 
fiscal year 2013, HSI's investigative efforts and collaboration with 
CBP led to the seizure of counterfeit goods valued at over $1.7 billion 
manufacturer's suggested retail price (i.e., the price that the 
legitimate good would have cost if purchased in the marketplace).
    In addition to HSI and ERO, two other ICE offices have unique 
operational roles: The Office of the Principal Legal Advisor (OPLA) and 
the Office of Professional Responsibility (OPR). OPLA, the largest 
legal program in DHS, provides critical legal advice and counsel to ICE 
leadership and agency personnel on all matters related to the 
investigation and enforcement of the Nation's customs and immigration 
laws. Further, OPLA is the Federal Government's representative in 
exclusion, deportation, bond, and removal proceedings before the 
Nation's immigration courts, prioritizing litigation of those cases 
involving convicted criminals, terrorists, and human rights abusers. 
OPLA also provides critical legal support to ICE components focusing on 
customs, worksite enforcement, ethics, employment law, tort claims, and 
administrative law issues.
    OPR investigates allegations of criminal and administrative 
misconduct involving ICE and CBP employees. In cases of potential 
misconduct, OPR prepares reports of its investigations for possible 
judicial or management action. OPR also provides independent reviews of 
ICE programs and offices, adjudicates ICE background investigations and 
issues security clearances for all prospective and current ICE 
employees and contract staff. OPR also contains an inspection branch 
that ensures ICE operates consistently with the high standards we 
promulgate to regulate our program offices and civil detention system. 
In addition, OPR is also responsible for the employee suitability and 
security clearance processes.
  cbp and ice enforcement and facilitation efforts at and between poes
    As the Secretary recently testified, we are gratified by the 
support Congress has provided to improve security at our borders and 
POEs and ensure active, world-wide enforcement of our customs and 
immigration laws. With that support, DHS has made great progress. There 
is now more manpower, technology, and infrastructure on our borders, in 
the interior and internationally, than ever before, and our men and 
women are producing results. CBP and ICE play an integral part every 
day in ensuring the safety and security of the American people.
    Every day CBP personnel work to uphold and enforce CBP's 
authorities and continue to make tremendous progress. For example, in 
fiscal year 2013, Border Patrol apprehensions totaled 420,789 Nation-
wide, 16 percent above fiscal year 2012, but 42 percent below peak 
fiscal year 2008 levels. Also in fiscal year 2013, CBP Officers and 
agents seized more than 4.3 million pounds of narcotics across the 
country. In addition, the agency seized more than $106 million in 
unreported currency through targeted enforcement operations. At POEs in 
fiscal year 2013, CBP Officers arrested 7,976 people wanted for serious 
crimes, including murder, rape, assault, and robbery. Officers also 
stopped more than 132,000 inadmissible aliens from entering the United 
States through POEs. Additionally, CBP Agriculture Specialists 
conducted approximately 1.6 million interceptions of prohibited plant 
materials, meat, and animal by-products at POEs while also stopping 
more than 160,000 potentially dangerous pests. Providing critical 
aerial and maritime domain awareness, in fiscal year 2013, Air and 
Marine operations contributed to the seizure of more than 1.1 million 
pounds of narcotics and the apprehension of 63,000 individuals involved 
in illicit activities.
    To protect public safety and National security, ICE prioritizes the 
removal of individuals who pose a danger to National security or a risk 
to public safety, including persons convicted of crimes, with 
particular emphasis on violent criminals, felons, and repeat offenders. 
In fiscal year 2013, ICE removed 368,644 individuals, of which 98 
percent fell into one of ICE's immigration enforcement priorities. Of 
these removals, 216,810 (59 percent) were convicted criminal aliens, 
which is an 89 percent increase in the removal of convicted criminals 
since fiscal year 2008. In fiscal year 2013, ICE also completed the 
deployment of Secure Communities to all 3,181 U.S. jurisdictions in 50 
States, 5 territories, and the District of Columbia.
    As the largest investigative arm of DHS, ICE enhances National and 
border security by interrupting the illicit flow of money, merchandise, 
and people that support terrorism and other criminal activity. ICE made 
over 40,000 criminal arrests in fiscal year 2013, and ICE criminal 
investigators initiated more than 40,000 new investigations. ICE seized 
$1.3 billion in currency and other monetary instruments and 1.6 million 
pounds of narcotics and other dangerous drugs.
                  h.r. 3846 (cbp) and h.r. 4279 (ice)
    H.R. 3846, The United States Customs and Border Protection (CBP) 
Authorization Act and H.R. 4279, The U.S. Immigration and Customs 
Enforcement (ICE) Authorization Act were both drafted to authorize--for 
the first time--the organization and security functions of CBP and ICE. 
The bills modernize and clarify current statute, specifically the 
Homeland Security Act of 2002, to remove references and authorities 
granted to organizations that no longer exist and entrusts them 
respectively, to the commissioner of CBP and the director of ICE.
    CBP and ICE support the intent of H.R. 3846 and H.R. 4279, and the 
committee's effort to authorize a modern-day CBP and ICE and their 
critical security functions. We thank the Members for their efforts in 
drafting the bills, which lay a foundation for formally authorizing the 
missions of CBP and ICE for the first time since the Department of 
Homeland Security was created in 2002. These authorizations recognize 
the distinct and important roles that CBP and ICE play, every day, in 
keeping Americans safe and facilitating legitimate travel and trade.
    Additionally, CBP and ICE and the committee all agree that we need 
to ensure that both CBP and ICE maintain their existing authorities and 
responsibilities, without inadvertently disrupting the continuity of 
current CBP and ICE missions, duties, functions, and authorities. We 
believe the bill provides a solid statutory foundation. It is important 
that any legislation preserve both agencies' flexibility to reorganize 
as needed to ensure that they remain dynamic and agile, capable of 
addressing emerging threats or changing operational environments.
                               conclusion
    CBP and ICE will continue to work with DHS and our Federal, State, 
local, Tribal, and international partners, to strengthen border 
security. We will remain vigilant and focus on positioning DHS's 
greatest capabilities to combat the greatest risks that exist today, 
preparing for emerging threats, and continuing to build a sophisticated 
approach tailored to meet the challenges of securing a 21st Century 
border.
    As Secretary Johnson recently highlighted to the Committee on 
Homeland Security, more than 100 Congressional committees and 
subcommittees have jurisdictional oversight over the Department of 
Homeland Security. As such, both CBP and ICE's authorities are spread 
out across many statutes. We commend the subcommittee's endeavor to 
authorize CBP and ICE in statute. This pursuit reflects the very spirit 
and impetus of the Homeland Security Act: To integrate, streamline, and 
modernize our Nation's security functions into a unified force, a 
strengthened homeland security enterprise, and a more secure America 
that is better equipped to confront the range of threats we face today 
and in the days to come. We look forward to continuing to work with 
Congress on this endeavor.
    Chairman Miller, Ranking Member Jackson Lee, and distinguished 
Members of the subcommittee, thank you for this opportunity to testify 
about the efforts of CBP and ICE in securing our borders. We look 
forward to answering your questions.

    Mrs. Miller. Thank you very much.
    The Chairwoman now recognizes Mr. Ragsdale for his 
testimony.

STATEMENT OF DANIEL H. RAGSDALE, ACTING DIRECTOR, IMMIGRATIONS 
 AND CUSTOMS ENFORCEMENT, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Ragsdale. Good morning, Chairwoman Miller, Ranking 
Member Jackson Lee, and distinguished Members of the 
subcommittee. Thank you for the opportunity to appear today to 
discuss the proposed legislation to authorize U.S. Immigration 
and Customs Enforcement and the important role we play in 
making our Nation more secure.
    I would like to start by expressing my appreciation for the 
committee, and their commitment to the men and women of ICE. 
ICE has grown exponentially since the creation of DHS in 2001. 
Today, ICE has more than 19,000 employees and offices in 50 
States and 48 foreign countries. ICE promotes homeland security 
and public safety through strategic and wide-ranging criminal 
and civil enforcement of hundreds of Federal laws governing 
border control, customs, trade, and immigration. Leveraging 
those authorities, ICE has become a powerful and sophisticated 
Federal law enforcement agency.
    ICE consists of two main operational programs: Enforcement 
and Removal Operations, and Homeland Security Investigations. 
Guided by ICE's prioritized enforcement principles, ERO 
identifies, apprehends criminal and other removable aliens, 
detains these individuals, and removes those individuals 
determined to be illegally present in the United States. HSI is 
responsible for a wide range of domestic and international 
criminal investigations arising from the illegal movement of 
people and goods into, within, and out of the United States, 
often in coordination with other Federal agencies.
    The work of ERO and HSI is bolstered by the Office of the 
Principal Legal Advisor, the Office of Professional 
Responsibility, and the key mission support work and the folks 
in management and administration. As the principal 
investigative arm of the Department, ICE enhances National and 
border security by dismantling transnational criminal 
organizations that seek to exploit our borders. In fiscal year 
2013 alone, ICE special agents made 32,401 criminal arrests and 
initiated 126,000 new investigations. We seized $1.3 billion in 
currency and other monetary instruments, and 1.6 million pounds 
of narcotics and other dangerous drugs.
    Just last week, ICE agents, as members of the San Diego 
Tunnel Taskforce, in collaboration with our enforcement 
counterparts in Mexico, uncovered two sophisticated drug 
tunnels connecting San Diego's Otay Mesa Industrial Park with 
warehouses in neighboring Tijuana, Mexico. These two tunnels 
are the sixth and seventh cross-border passageways discovered 
in San Diego in less than 4 years. Similarly, ICE continues its 
efforts against illicit finance by supporting the bulk cash 
smuggling centers' inclusion of additional law enforcement 
partners.
    ICE will also grow our commercial fraud by expanding 
investigative support and leveraging enforcement operations 
with State and local enforcement agencies. ICE will continue to 
develop its illicit pathways attack strategy to focus on cross-
border threats, global illicit pathways including contraband 
smugglings, arms trafficking, money laundering, bulk cash 
smuggling, human smuggling and, most importantly, human 
trafficking. For ERO, ERO's agents and officers identified and 
arrested, and removed, more than 368,000 aliens; 82 percent 
were those who had been arrested in the interior and previously 
convicted of a crime.
    ICE also conducted over 230,000 removals of individuals 
apprehended along our borders while attempting to unlawfully 
enter the United States. In sum, 59 percent of all ICE 
removals--a total of about 216,000--have been removed after 
having been convicted of a crime. ICE's commitment to 
prioritize the removal of criminal aliens and egregious 
immigration violators is evident in a recent ERO operation. 
Last week, ERO officers and fugitive operations teams 
throughout central and south Texas arrested 50 convicted 
criminal aliens, immigration fugitives, and other immigration 
violators during a 3-day operation.
    Of the individuals taken into custody, 30 had convictions 
including sex offenses, rape, larceny, drug possession, 
domestic violence, aggravated assault, and driving under the 
influence. However, even with all these successes enhancing our 
National and border security, ICE sometimes faces challenges in 
asserting our authority. At present, there is no single piece 
of legislation that identifies ICE and sets forth our mission 
in a consolidated way.
    H.R. 4279, the U.S. Immigration Customs Enforcement Act, 
does just that. As this bill makes its way through the 
legislative process, we look forward to working with the 
Congress to ensure that ICE's existing authorities and 
responsibilities are maintained.
    Thank you again for the opportunity to appear before you 
today, and I will be pleased to answer any questions you have.
    Mrs. Miller. Thank you both very much. I think I will just 
pick up on your final comment there, Mr. Ragsdale, mentioning 
about how there is no single piece of legislation authorizing. 
I remember when I first got on this committee and found out 
that neither CBP or ICE had ever been formally authorized by 
the Congress. I was floored, to tell you the truth. So that has 
been the principal impetus behind these two pieces of 
legislation.
    As we said, other agencies are annually authorized, or 
routinely authorized, reauthorized, by the Congress. In this 
case, that has not happened with these two agencies. Certainly 
as was mentioned in regards to the 9/11 Commission 
recommendations and their goals, this is something that is very 
important. I think as we think about how the agencies have 
evolved over the last 12 years as well, just sort-of bringing 
them and recognizing the modern-day CBP and ICE as part of this 
legislative process also would be very helpful.
    Perhaps you could talk just a little bit, both gentlemen if 
you will, about having this kind of clear guidance in the form 
of an authorization from the Congress. How that would really 
accrue positively to both of your agencies. I just throw that 
out there.
    Mr. McAleenan. Thank you. Agree, actually, fully with the 
reasons you outlined for authorizing CBP. I mean, the evolution 
of the Department of Homeland Security and CBP itself, the 
growth of the organization, our missions, we are not just a 
small aspect of an under secretariat that, as your pointed out, 
no longer exists. Or the largest law enforcement agency in the 
United States, with the responsibility to enforce 500 laws from 
over 47 agencies. So clarifying that role and responsibility, 
establishing the name of our organization, the reporting 
structures, it would be very meaningful to have that in 
statute.
    Mr. Ragsdale. I would add, given our size, at 20,000, 
nearly 20,000, employees, and folks putting themselves in 
harm's way every day, there needs to be clarity about their 
mission. These are folks that are challenged with, you know, 
ever-sophisticated transnational criminal organizations, 
dangerous situations around the United States, particularly 
along the Southwest Border. Making sure that our mission is 
clear in their minds, in the minds of the Congress, the public 
is of critical import.
    It is a cohesive message. It is a message that Federal 
partners and State and local partners understand. So I think 
for all the reasons you have articulated, as well as Mr. 
McAleenan, this--it just makes sense.
    Mrs. Miller. You know, also--and this is--I will be 
sensitive to what you can actually comment on because this is 
our problem, not your problem, the Congress not really giving 
the clear authorities and having--the last time I saw a wiring 
diagram there were 80 or 90 different committees and 
subcommittees that the Department of Homeland Security had to 
answer to. So the amount of time that your agencies spend in 
trying to react and respond to questions that all of these 
various jurisdictional umbrellas have over your agency has got 
to be very difficult.
    It would seem to me that just having more clear guidance 
from an authorizing standpoint, as well, may be advantageous to 
your agencies, as well. How would you see that?
    Mr. McAleenan. I think that is correct, Chairwoman. It is 
understandable that we have lots of oversight and interest in 
our mission. We have operations in all 50 States and 40 
countries abroad. What we do at the ports of entry and between 
the ports affects every State in the Union. We appreciate the 
input from Congress. It is helpful to have a committee that 
understands the full scope of our mission and to have an 
authorizing bill that articulates that in one place, however. 
So I think, to your point, it is useful to have some clarity in 
that.
    Mr. Ragsdale. I would also agree. Certainly, clarity among 
all the issues that ICE is involved in as well, certainly 
brings some form and shape to the discussion. You know, we have 
a wide-ranging mission, as well. Protecting the border is 
something that touches many, many people in many different 
ways. But again, having an analytic framework and a legislative 
framework to have the discussion from certainly would 
streamline and clarify sort of everybody's expectations.
    Mrs. Miller. Well, I appreciate both of the agencies 
working very closely with both the staffs--my staff and the 
Ranking Member's staff--as well as we have put together this 
piece of legislation. It is my intent, actually, to have a 
mark-up on these pieces of legislation in the very near future. 
So I guess the last thing I would ask you gentlemen, if there 
is anything else that we should know about as far as what might 
be included, or other kinds of things that we ought to be 
looking at, this is your opportunity. I am not sure exactly 
what questions to ask you. You know your business better than 
we do, so is there something in particular that we ought to be 
looking at still?
    Mr. McAleenan. From CBP's perspective, H.R. 3846 provides a 
good framework. We have had some robust exchange on the 
technical assistance side with your staff, and I think that has 
been a very good conversation. Nothing significant to offer 
today.
    Mrs. Miller. Very good.
    Mr. Ragsdale. Nothing significant here, as well. Again, we 
have had a great relationship with your staff during the 
technical assistance process. We see this as a huge step 
forward, so, you know, we think it is certainly great progress.
    Mrs. Miller. Okay, very good.
    With that, I would recognize our Ranking Member for her 
questions.
    Ms. Jackson Lee. Thank you very much. Let me ask Mr. 
McAleenan a question on risk-based assessment. I have 
introduced H.R. 3575, the Putting Security First in 
Preclearance Act to require CBP to make a risk-based security 
case for any new preclearance site before expanding the 
program. What are the criteria CBP uses for determining whether 
there is a risk-based security case for deploying CBP personnel 
overseas, and how is that applied in the context of 
preclearance?
    Mr. McAleenan. Thank you. I think it is perfectly 
appropriate to channel all of our operations, and our overseas 
operations in particular, to focus on the highest-risk pathways 
in the highest-risk areas. For preclearance, there are two main 
objectives for preclearance. Sometimes they exist in the same 
location, sometimes they are separate. Facilitating lawful 
international travel, and then securing it.
    In the security side, in particular, as you have asked 
about, Ranking Member, the terrorism travel aspect is foremost. 
We look at things like the number of watch-listed persons that 
have traveled through a particular airport over the last 
several fiscal years. We also assess emerging intelligence and 
how that applies to that pathway in terms of individuals that 
might present a risk, headed toward the United States.
    We look at the immigration factors. How many folks 
traveling on this route have proven to be inadmissible to the 
United States after examination? That is a really key aspect. 
The number of fraudulent documents and the use of fraudulent 
documents that we have intercepted. One aspect of preclearance 
that is not well-understood is the fact that it is also a great 
opportunity for agriculture enforcement.
    So pathways that come from regions of concern where there 
are pests that could harm U.S. agriculture, a trillion-dollar 
industry that is critical to the country, that is a factor, as 
well. So we combine all those aspects to determine the risk 
basis for selecting a new location for preclearance.
    Ms. Jackson Lee. Well, I like the idea that we are on the 
same page about the at-risk approach, and hope that I can work 
with the Chairwoman as we move toward reauthorization to 
include that language in the legislation. I think that would be 
a very good place, and I am glad that we are sort of on a 
common approach to doing that. It is a very important part of 
your responsibility.
    You have got 60,000 employees. Many of them are on our 
Northern Border and Southern Border. We offer them our 
appreciation. Over the last couple of months, or last year, as 
you well know, there were questions of overtime hourly 
compensation, relocation. What has the agency done to deal with 
some of those issues that the men and women who are on the 
border do that particular work? What has been the response?
    Mr. McAleenan. Thank you for the question and your 
acknowledgment and continued support of the men and women of 
CBP. It is an honor to represent them today. They do tremendous 
work on behalf of the Nation and your respective States and the 
American people. In terms of the compensation issues, overtime 
is a critical aspect of how we conduct business. It allows us 
to flexibly respond to emerging threats or traffic patterns in 
a given day, both at ports of entry and between.
    We are eager to continue to work with Congress to make sure 
that we are administering our application of overtime 
appropriately. We have several different types of overtime that 
our front-line personnel use. We have taken a number of steps, 
with the Secretary's guidance and Commissioner Kerlikowske's 
guidance to ensure that we have the right training, the right 
oversight, and the right review and auditing procedures for how 
we apply our overtime. We think it is critical to our 
operations and critical to recognize the great work that our 
men and women do, above and beyond the call of duty and above 
and beyond their standard shifts.
    Ms. Jackson Lee. Well, I would want the men and women to 
know that in this hearing room way up in here in Washington, 
DC. we are still concerned about them.
    Let me have a question for ICE. But let me just quickly 
ask, in your recruitment obviously you have diversity with 
Hispanics. Are you looking for African-Americans, Asians, women 
in the recruitment of vast amount of employees that you have? 
Do you have a good outreach?
    Mr. McAleenan. Absolutely. Actually, with this tremendous 
opportunity that Congress has given us in the fiscal year 2014 
omnibus bill to hire 2,000 additional CBP Officers, we are 
actually targeting a more diverse geographic laydown so we can 
find people of all backgrounds, all races, all expertise and a 
lot of language skills, as well, so we can have the most 
representative workforce of the United States and the best 
workforce to interact with international travelers and others.
    Ms. Jackson Lee. Thank you. Let us know how we can be of 
help.
    Mr. Ragsdale, very quickly, in the landscape of ICE offices 
all across America they do many things. Tell me how 
devastating, how you have heard how devastating and deadly 
human smuggling and human trafficking has come to be in terms 
of those who may be interfacing with those issues.
    Mr. Ragsdale. Well, as you know, those are crimes that are 
slightly different in terms of their sort-of, operational, 
sort-of results. The smuggling organizations have exploited our 
borders and they are sort-of commodity-agnostic. They move 
people, they will move drugs. So we are certainly bringing our 
hands to the fight against smuggling organizations.
    The trafficking piece is one that is a little bit more 
difficult, and that is where we need to sort-of absolutely rely 
on outreach. It is the blue campaign, it is sort-of the ``See 
Something, Say Something.'' There is a whole range of sort-of 
relying on folks to--when they see victims of trafficking that 
might need law enforcement help, to reach out. Through the tip 
line, and sort-of bring that to law enforcement's attention. We 
certainly have really put some increase, over a 400 percent 
increase, in investigative hours in human smuggling and human 
trafficking in the last 4 years.
    Ms. Jackson Lee. Well, very quickly, when it deals with 
human smuggling, as you well know, if you are restrained it is 
like trafficking or slavery. But my question--let me just 
finish on this last question--a reauthorization that ramps up 
legislation, or language, for that aspect of your business 
would be very helpful.
    Mr. Ragsdale. Indeed. It is certainly a scourge, and we 
absolutely want to bring every authority we have to that fight.
    Ms. Jackson Lee. Thank you, Mr. Chair. I hope that we will 
have one of our colleagues sit in the Ranking Member's seat.
    Thank you very much. Yield back.
    Mrs. Miller. I thank the gentlelady. Before I recognize Mr. 
Duncan, Mr. McAleenan, as you are filling these positions for 
the 2,000 new officers--and the gentlelady was talking about 
the reach--certainly our veterans, our returning veterans, have 
got a tremendous skill set that would be just a huge value-add, 
I know, to your Department. So I am sure you are looking in 
that direction also, and we certainly encourage you to do so.
    With that, the Chairwoman recognizes the gentleman from 
South Carolina, Mr. Duncan.
    Mr. Duncan. Why, Thank you, Madam Chairwoman, and thanks 
for this hearing. Thank you, guys, for what you do, CBP and ICE 
and the whole Department, the challenges you face to keep us 
safe. Especially when there is no--sometimes no real clear 
direction, not only from Congress but maybe the administration, 
on what your role is. That is why I think the authorization 
bill is so necessary. That at least Congress can give you clear 
direction on what we think the priorities should be and in 
representation of our districts.
    So thank you again, and I can't say that enough. So given 
the catastrophic risk that a smuggled dirty bomb could pose to 
an American city, would it be helpful for the committee to 
authorize CBP's covert testing program for transborder nuclear 
and radiological smuggling to ensure the systems and procedures 
in place are working? The gentleman from CBP.
    Mr. McAleenan. So I don't know that it needs to be 
specifically authorized in the bill for us to continue that 
activity. I agree entirely with you, Congressman, that it is a 
critical aspect of testing our capabilities and ensuring that 
we are using the radiological detection equipment, the portal 
monitors, the handheld devices, our non-intrusive inspection 
technology to its greatest effectiveness at the border. We will 
continue to do so. I am sort-of agnostic on whether it needs to 
be specifically referenced in the bill.
    Mr. Duncan. Okay. In your view, how should CBP coordinate 
with the Domestic Nuclear Detection Office, especially in the 
area of risk assessment then?
    Mr. McAleenan. I think we need to continue to coordinate 
very closely with them. The DNDO brings tremendous expertise 
from folks across the spectrum, from the Department of Energy, 
from DOD. They have scientists that are expert in the field and 
understand the exact levels and types of radiation that can be 
detected in different settings. They are really--they help us 
provide--get a better sense of the overall global risk and the 
types of pathways that adversaries might use to move 
radiological and nuclear devices.
    So I rely on that partnership. I am going to be meeting 
with the director of DNDO in a couple of hours today, actually, 
on precisely this issue. So I think it is critical for us to 
remain joined at the hip, and mutually informing each other's 
work.
    Mr. Duncan. Okay. Well, we want to assist you with that 
mission. One thing I would like to ask you to do is between now 
and the full committee mark-up on this bill make contact with 
my office, and see if there is needed language in the 
authorization bill as a form of amendment. Or kind-of educate 
me and my staff on some of the programs, maybe off the record 
as well.
    So let me just shift gears, and say in the 112th Congress 
more than 100 Congressional committees and subcommittees 
asserted jurisdiction over DHS. DHS personnel participated in 
289 formal House and Senate hearings involving 28 committees, 
caucuses, and commissions which required testimony from more 
than 400 DHS witnesses. As the Chairman of the Oversight and 
Management Efficiency Subcommittee, I was involved in a lot of 
that, probably, to do so.
    But the Department also participated in more than 4,300 
briefings and other non-hearing engagements with Congress. That 
is pretty substantial. So can you quantify for me how much time 
your components spend each year responding to Congress and 
preparing for meetings on the Hill? I am not gonna hold you to 
these numbers, but----
    Mr. McAleenan. Well, I haven't actually done the math. I 
mean--but the number of hearings and briefings is extensive. We 
responded to about 3,500 inquiries from the Hill last year and 
1,300 letters, as well as the dozens of hearings and hundreds 
of briefings we conducted. So it is a significant effort. We 
want to prepare and provide accurate information back to our 
oversight and appropriations committees. But it is quite an 
endeavor.
    Mr. Duncan. Yes.
    Mr. Ragsdale.
    Mr. Ragsdale. So I don't have specific numbers. But I will 
tell you it is a substantial amount of work. Certainly, you 
know, we welcome the oversight and we certainly welcome the 
robust style that we have with folks that are very interested 
in what we do. I think, as you have heard, because the border 
touches so many people in so many different ways, and there are 
so many laws that we investigate and enforce related to border 
protection, we certainly understand that.
    Having said that, it is part of--what that level of effort 
does certainly have an impact on operations.
    Mr. Duncan. Okay. How has this impacted your ability to 
actually manage the components? I mean, compliance with our 
request, how does that impact your day-to-day focus? Are you 
distracted, is it helpful, do we need to do more, should we 
consider doing less?
    Mr. Ragsdale. Well, I will say that I do spend several 
probably hours a day reviewing sort of requests from oversight. 
You know, whether it is correspondence, QFRs, there is a range 
of things. We certainly, again, welcome the partnership. But it 
is a substantial amount of time.
    Mr. Duncan. Sir?
    Mr. McAleenan. It is a substantial amount of time. But to--
you asked three questions on the value. First of all, it is 
valuable? It is important to have Congressional oversight. 
There is a lot of important feedback from your constituents 
that we get through this process. It does take a while to 
answer all the different questions and sometimes similar 
questions from different angles. But, you know, it is an 
important part of our system and we understand that.
    Mr. Duncan. Well, I will tell you it is invaluable for us 
to at least answer the question for constituents. But also to 
try to do our job. We realize we are a decade into this 
conglomeration, and I think oversight is important. But also I 
think authorization and clear direction is important. That is 
why I think this bill is so necessary.
    So with that, Madam Chairwoman, I yield back.
    Mrs. Miller. I thank the gentleman very much.
    The Chairwoman now recognizes the gentleman from Texas, Mr. 
O'Rourke.
    Mr. O'Rourke. Madam Chairwoman, thank you for holding the 
hearing and for the introduction, along with our Ranking 
Member, of these two important bills. I want to thank the 
panelists here today from CBP and from ICE. I want to thank you 
and the people who work with you, and have been working with 
you for the years following September 11, 2001 and have kept 
this country, relatively speaking, very safe since then.
    The agents and officers who work in the district I 
represent in El Paso help contribute to the fact that we are 
the safest community in America today, and we have been for the 
last 4 years. One of the safest, going back, for the last 10 
years and plus. So I want to thank you.
    I want to acknowledge, as other Members of this committee 
have, the unusual difficulty in the work that these agents and 
officers perform; the number of threats against which they must 
remain vigilant; the conditions under which they are working 
throughout the Northern and the Southern Border airports and 
other places.
    Doing so, frankly, in a time of uncertainty beyond not 
having this authorization. You have sequester, you have 
Government shutdown, you have a failure on the Federal 
Government's part and Congress to fully support these agents 
and officers in their work. So we really appreciate the work 
that they do, in spite of all of that.
    But along with the lack of authorization since--explicit 
authorization since 2002, we have also seen more than a 
doubling in the budget on border security. In 2003, it was 
somewhere around $7 billion; today it is $18 billion. We have 
doubled the size of the Border Patrol. That is on top of the 
fact that Border Patrol and CBP have some very unusual police 
powers when it comes to their ability to stop, question, 
detain, search and seize property, and go through that property 
at our ports of entry and then at those internal checkpoints.
    So I guess starting with Mr. McAleenan, I would love for 
you to discuss what opportunities we have for greater 
transparency and oversight reporting, especially when you have 
these very unusual special powers at our borders and at our 
ports of entry.
    That is following difficulty from--that Members of 
Congress, the press, the public have had in getting information 
about how CBP works, what your use-of-force policies are, this 
PERF report that was recently done and leaked, concerns about 
training and professionalism and customer service. What room do 
we have within this legislation, or otherwise, to address those 
issues?
    Mr. McAleenan. Thank you, Congressman. Good to see you and 
your continued support for CBP. That is a good question. I 
think we are having a really productive dialogue with the 
Congress, with our stakeholders in the communities, with the 
non-Governmental organizations, with the Office of Civil Rights 
and Civil Liberties at DHS and others on these various issues. 
As you noted, we do have some unique authorities at the border 
of the United States, border search authority that--and the 
authority to search persons and conveyances.
    We try to exercise that with judicious and careful 
precision, with supervision at each level of the ports and the 
Border Patrol. I think having that dialogue about our existing 
policies, and how carefully constructed they are, and also 
identifying those areas where they can be improved. Which is 
something, as you raised in the use-of-force area, that we have 
been working on hard this last year. We are very proud of our 
men and women in the field. We think they exercise tremendous 
restraint in their encounters in a lot of dangerous situations.
    But we also want to improve continuously, in terms of the 
training we give them, the tactics we teach them, the equipment 
that we provide so they can resolve situations at the lowest 
possible level of force. I think the recent release of our use-
of-force policy, the discussions around that, I think 
Commissioner Kerlikowske has expressed to Congress in several 
occasions during his confirmation and in his first hearing his 
intent to continue that transparency and openness and that 
dialogue and even enhance it.
    So I think this in an important topic that we can continue 
to talk through.
    Mr. O'Rourke. I appreciate that. I want to commend you and 
our new Secretary for this greater level of transparency, at 
the local level with Chief Luck of the Border Patrol, with DFO 
Higgerson. We have had nothing but responsiveness and 
transparency. So we really appreciate that. But I am concerned 
that these positive steps are somewhat dependent on specific 
people taking specific actions.
    I would think it might make some sense to institutionalize 
this and make sure--much as the way that we are authorizing 
these agencies today--that we have a system on which the public 
can depend, Congress can depend, this committee can depend to 
ensure that we have that transparency, and it is not an 
elective decision made by a specific Secretary or agency head. 
But appreciate your answers to the questions.
    With that, I will yield back.
    Mrs. Miller. I thank the gentleman.
    The Chairwoman recognizes the gentlelady from California, 
Ms. Sanchez.
    Ms. Sanchez. I thank the gentlelady from Michigan, and 
always love showing up to the subcommittee, Ms. Chairwoman, 
because you do a good job, I think. So obviously you and I and 
others on this committee have been working for awhile to try to 
try to get some of these bills to the House floor. So I 
appreciate the bipartisanship that you have exhibited in trying 
to do that.
    Gentlemen, thank you for being here. Thank you, you know, 
for representing all the employees over there at Homeland 
Security. I was talking to Secretary Jensen the other day, and 
hoping that the morale of the Department is coming up. Every 
time we see the surveys of working for the Federal Government, 
of course it is very difficult to be a public servant these 
days. Even more difficult to be over at Homeland Security. So 
please send our best to those who are doing a good job for us 
over there.
    I think one action, one idea that we can all stand behind 
is that we need to stop needlessly separating our families. I 
am sad to say that in my district, that in my area, Orange 
County, California, of the juveniles who are detained for all 
types of things from petty theft to grand larceny, let's say, 
that of those juveniles those who are undocumented and sent to 
ICE or requested for ICE to come over and detain them, that 43 
percent of those type of undocumented detainees, juveniles in 
the State of California, are detained out of Orange County.
    Which means it is--when we are 3\1/2\ million people out of 
38 million people, that it is really tough to be a young person 
without documents in the county of Orange County. When I had an 
opportunity to meet with the director of ICE, John Morton, we 
discussed the continued need to use prosecutorial discretion 
and alternatives to detention as a way of keeping our families 
together. With the President's recent call to review all 
deportation policies, I would like to continue to highlight the 
need to use that discretion.
    There is a clear difference between the impacts that 
deportation has on a mother of three versus a convicted felon. 
I would hope, as you all review those policies, that you 
continue to keep in mind the harmful effects that deportations 
have on our families and on our communities. I see the impact 
of these deportations on families that I represent, I hear the 
stories, I know you have heard the stories where people live in 
everyday fear of deportation of their mother and--simply 
because, these deportations, they didn't have the right 
identification or they were at the wrong place at the wrong 
time.
    So I question--my question to you is: As you review your 
overall deportation strategies how will you include the voice 
and the perspective of our community stakeholders? What will 
you do to ensure that we uphold the principles of family unity 
and due process in our deportation standards?
    Mr. Ragsdale. Well certainly prosecutorial discretion is a 
concept that makes perfect sense. I think we have heard--or you 
have heard from ICE many, many times that we want our removals 
to be--have the greatest impact on public safety. Certainly the 
enforcement programs we have put in place, that started in June 
2010 with former Director Morton's memorandum, have really 
sort-of transformed the way we do business. Last year, for 
2013, 98 percent of the ICE removals fell into the four 
priorities identified in the memo.
    So I think one of the themes that we certainly have heard 
today is law enforcement agencies and the men and women who do 
the real work like clarity. I think, you know, the idea of 
discretion is something they fully understand and embrace. I 
think they certainly understand there are many views on this 
topic. But clarity is something they can get behind and follow. 
The numbers certainly bear that out.
    I was just in Orange County a week or so ago to launch 
Project iGuardian on protecting children from child 
exploitation. We have great partnerships in Orange County, we 
recognize that ICE's role in protecting families in Orange 
County is of particular import. But we do know that clarity is 
what really drives the best process here. I think the results 
speak for themselves in terms of the clarity that our folks 
have done, and I think--to the extent we see greater reform, 
which we support, we will get behind that, as well.
    Ms. Sanchez. Chairwoman, my time is up. But if we have 
another round of questions I have some more questions. I just 
want to indicate we do have a great task force in Orange County 
with respect to human trafficking; one which we have funded 
over the years--I think up to $600,000--to put police and 
probation and workers, et cetera, and some of the Federal 
agencies to work with what is really a disgusting sex 
trafficking, domestic trafficking, et cetera of people.
    Mrs. Miller. Since we have no other--if you have another 
question, please----
    Ms. Sanchez. Thank you, Madam Chairwoman. I appreciate the 
opportunity to ask.
    Acting Director Ragsdale, in 2012 and 2013 I, along with 
other California Members, wrote to our Governor asking him to 
advocate for, and sign into law, the California Trust Act. As 
you know, this was in response to the ill-conceived Secure 
Communications program. It makes clear that the program needs 
clear, minimum standards for when local law enforcement will 
respond to Federal immigration detainer requests that results 
from the Secure Communications program. The program really put 
a strain on the trust between the community and our local law 
enforcement.
    As you know, one of the things that happens with immigrant 
communities is that there are immigrants actually within those 
communities that actually prey upon the immigrant communities 
and those who don't--might not have the right documents or have 
over-stayed documents in our country because they know that 
they won't go to the police. So there is, you know, a whole set 
of--or people who are, and have been witnesses to crimes are 
afraid to go to the police because they may not be in status in 
the country.
    I think that due process and distrust in immigrant 
communities with local law enforcement is really affected. So 
my question is: Are there any plans in pushing what I and other 
Members have advocated for, and California has done through the 
Trust Act, to all secure communication jurisdictions?
    Mr. Ragsdale. Well, if I understand your question 
correctly, obviously the State legislative process is obviously 
taken on a state-by-state tack. Obviously, you know, that 
process is something separate and distinct from what the agency 
does. What I will say is, it is probably important to note 
Secure Communities is and isn't. Secure Communities is a 
biometric information sharing between DHS and the FBI. It is 
not, in and of itself, an enforcement or deportation program.
    It is an information-sharing program. Certainly, sharing 
biometric data is something that, just across the law 
enforcement spectrum, I think everyone recognizes is of great 
import. It certainly takes a lot of the issues around 
biographic information sharing in terms of name-spelling and so 
forth and so on that, again, sort-of clarifies--or, as I said 
before--sort-of gives some clarity to the process.
    So, again, I think one has to go back and look at the 
removal numbers and the stated priorities that ICE is executed 
against to see that the work our men and women are doing--and, 
again, in a process that there are many, many different views 
are really focused on our stated priorities: Criminal aliens, 
fugitives, recent border entrants, and folks that present the 
greatest danger to public safety. The numbers bear that out.
    Ms. Sanchez. One more question, Madam, if you will indulge 
me? I am sorry.
    Assistant director, I have been notified by some of my 
colleagues that an ICE processing facility in El Centro, 
California will be closing in June. ICE has told the over 500 
employees there that they must starting looking for new 
employment because a new facility is being constructed and 
operations will be transferred there. It is my understanding 
that not one of those employees will be guaranteed employment 
at the new facility, and that applying for the position won't 
be an option for most because the new facility requires 
different certifications.
    So I am really concerned with the lack of transparency that 
has occurred during this transition, and I would like to ask 
you if ICE has requested an economic impact report for that 
closure in El Centro. For those of you who don't know El 
Centro, it has probably got the highest unemployment area--it 
is Imperial Valley--the highest unemployment of all of 
California. So it has a deep, deep impact when you see 500 jobs 
lost. Can your comment to that, please?
    Mr. Ragsdale. Sure. So there is probably a little confusion 
about exactly what is going on in El Centro.
    Ms. Sanchez. Well, that is why we are asking.
    Mr. Ragsdale. I understand. So thank you for your question. 
We are actually looking to operate our detention facilities in 
places that not only meet our standards, but certainly looking 
at the cost per day. The El Centro facility, the SBC, is 
something that the Government owns.
    Ms. Sanchez. What government?
    Mr. Ragsdale. We do, ICE owns it. But we find that for 
facilities owned by the Government the per-day rate is more 
expensive than we see in contract facilities. Also, the 
contract facility at El Centro has some--it is a blended 
workforce between contractors and Feds. So we have actually 
gone into a competitive procurement process and found another 
location in the same community that can provide the same 
service at a cheaper price. That is the process that is going 
on.
    So it is not a question of removing jobs from the El Centro 
area. It is really just getting the same service that meets our 
detention standards at a better price.
    Ms. Sanchez. Thank you, Madam.
    Mrs. Miller. I thank the gentlelady for her questions.
    I will just comment that I know we have a number of--on the 
Northern Border, a number of our county sheriffs that provide 
the detention beds. That contract service, works out very, very 
well for ICE and certainly for the counties, as well. Which 
means for the taxpayers, overall. So I think that is an 
important consideration.
    But, again, certainly you heard all of us thank you both, 
and ask you to extend our thanks to all the men and women that 
serve in your agencies. We certainly recognize their bravery 
and their--everything that they--the challenges that they face 
each and every day. We are very appreciative of that. I think, 
evidenced by this, by these two pieces of legislation the 
Congress also recognizes some of the weaknesses that we have.
    We need to correct them, and really delineate your 
authorizations and your responsibilities, and help you however 
we can. So we appreciate both of you coming today. We look 
forward to the mark-up of both of these bills in the very near 
future. If there are any other questions from any of the 
Members on the subcommittee here we will forward them to you 
and ask that you would respond to those, as well.
    Pursuant to committee rule 7(e), the hearing record will be 
held open for 10 days. Without objection, the committee stands 
adjoined.
    [Whereupon, at 11:07 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
